/o~
'OCKLE

A : E-Mail Address:
L ega | Bri € fs contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214 Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-792

VUGO, INC.,
PETITIONER,
Vv.
CITY OF NEW YORK,
RESPONDENT.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 6th day of April, 2020, send out
from Omaha, NE 1 package(s) containing 3 copies of the REPLY IN SUPPORT OF CERTIORARI in the above entitled case.
All parties required to be served have been served by third-party commercial carrier for delivery within 3 calendar days.
Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
Chad A. Snyder Jeffrey M. Schwab
RUBRIC LEGAL LLC Counsel of Record
111 Third Avenue South Brian Kelsey
Suite 110 Reilly Stephens
Minneapolis, MN 55401 LIBERTY JUSTICE CENTER
612.465.0074 190 LaSalle St., Ste. 1500
chad@rubriclegal.com Chicago, IL 60603

(312) 263-7668
jschwab@libertyjusticecenter.org

Counsel for Petitioner

Subscribed and sworn to before me this 6th day of April, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL HOTARY-State of Hlebraska Ouedratr- AG b J,
RENEE J, GOSS .

My Comm. Exp. September 8, 2023

 

 

 

Notary Public Affiant
SERVICE LIST

Richard Paul Dearing

New York City Law Department
100 Church Street

New York, NY 10007

P: (212)356-2500
rdearing@law.nyc.gov

Attorney for Respondent City of New York
